Office of Inspector General

                    General  



      Semiannual Report 

       to the Congress 

             Covering the Period 

    April 1, 2011 — September 30, 2011





FEDERAL MARITIME COMMISSION 

                              FEDERAL MARITIME COMMISSION
                                   Washington, DC 20573


                                          October 31, 2011

Office of Inspector General




Dear Chairman Lidinsky and Commissioners:

        The attached report is submitted in accordance with Section 5 of the Inspector General Act of
1978, as amended. It summarizes the activities of the Office of Inspector General (OIG) for the period
April 1, 2011, to September 30, 2011. The Act requires that you transmit the report to the appropriate
Congressional committees within 30 days of receipt. Your transmittal should also include any comments
you consider appropriate and other statistical tables and reports required by law.

       During this period we issued one program evaluation and began four audits / evaluations of
agency programs or operations. We also updated the OIG’s annual audit plan for FY 2012 and beyond
and completed a peer review of the audit operations at another federal OIG.

       Also during this reporting period, the OIG received nine complaints: We responded to four of the
complaints and forwarded five complaints to the appropriate FMC program area for disposition. The OIG
opened no new investigations and referred no matters to prosecutorial authorities during this period.

        In addition to these audit and investigative activities and outcomes, the OIG began quarterly
meetings with other Designated Federal Entity OIGs to discuss issues, outcomes and solutions endemic to
smaller IG offices. We continue to respond to consumers victimized as part of an internet scam operation
using FMC indicia, selected a new information security contract evaluation team and began substantive
revisions to the office’s Investigations Manual in anticipation of an investigations peer review.

        AS of September 30, 2011, there were 21 recommendations between 13 and 66 months old. The
oldest recommendation, to implement a paperless bill-paying process, is a “green” alternative to the
current paper based process that would be more efficient for agency staff and its customers.

       I appreciate management’s support and I look forward to working with you in our ongoing efforts
to promote economy and efficiency in agency programs.



                                                       Respectfully submitted,




                                                       /Adam R. Trzeciak/
                                                       Inspector General
                                              TABLE OF CONTENTS

Transmittal Letter

EXECUTIVE SUMMARY ............................................................................................................ 1 


BACKGROUND ............................................................................................................................ 1 


AUDITS/EVALUATIONS............................................................................................................. 3 
   Summary of Audits and Reviews Issued During the Current Period ......................................... 3 
   Planned Audits or Reviews ......................................................................................................... 4 


INVESTIGATIVE ACTIVITIES ................................................................................................... 5 


OTHER OIG ACTIVITIES ............................................................................................................ 6 


SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS .......................... 11 
   TABLE I – Inspector General Issued Reports with Questioned Costs ..................................... 12 
   TABLE II – Inspector General Issued Reports with Recommendations tht Funds be Put to
               Better Use ............................................................................................................ 13 
        Inspector General’s Semiannual Report to Congress


                                  EXECUTIVE SUMMARY 

       This Semiannual Report to the Congress summarizes the activities and accomplishments
of the Federal Maritime Commission (FMC or Commission), Office of Inspector General (OIG
or Office), for the period April 1, 2011, through September 30, 2011. During this period we
issued one program evaluation and began four audits / evaluations of agency programs or
operations. We also updated the OIG’s annual audit plan for FY 2012 and beyond and completed
a peer review of the audit operations at another federal OIG.

       Also during this reporting period, the OIG received nine complaints: We responded to
four of the complaints and forwarded five complaints to the appropriate FMC program area for
disposition. The OIG opened no new investigations and referred no matters to prosecutorial
authorities during this period.

       In addition to these audit and investigative activities and outcomes, the OIG began
quarterly meetings with other Designated Federal Entity OIGs to discuss issues, outcomes and
solutions endemic to smaller IG offices.        We responded to a congressional request for
information on open OIG recommendations and participated in a Government Accountability
Office survey on the independence, effectiveness and expertise of inspectors general, as required
by the Dodd-Frank Reform Act (Pub. L. 111-203, 124 Stat. 1376, July 21, 2010). We continue
to respond to consumers who were victimized as part of an internet scam operation using FMC
indicia, selected a new information security contract evaluation team and began substantive
revisions to the office’s Investigations Manual in anticipation of an investigations peer review.


                                       BACKGROUND 

       The FMC is an independent agency responsible for the regulation of ocean-borne
transportation in the foreign commerce of the United States. The principal statutes or statutory
provisions administered by the Commission are the Shipping Act of 1984, as amended by the
Ocean Shipping Reform Act of 1998; the Foreign Shipping Practices Act of 1988; and Section
19 of the Merchant Marine Act of 1920.
       April 1, 2011 – September 30, 2011                                           Page 1
        Inspector General’s Semiannual Report to Congress

       The FMC is headed by five Commissioners nominated by the President and confirmed by
the Senate, each serving five-year terms. For Fiscal Year (FY) 2011, the Commission operated
under a continuing resolution at FY 2010 levels. The FY 2010 appropriation was $24.1 million.

       Although the majority of the Commission’s personnel are located in Washington, D.C., it
also maintains a presence in Los Angeles, Seattle, New York, New Orleans, Houston and South
Florida, through area representatives who serve the major ports and transportation centers within
their respective geographic areas. In addition, one at-large area representative operates from
Washington, D.C.

       The FMC/OIG was established in 1989 as required by the Inspector General Act of 1978,
as amended (5 U.S.C. app.). The OIG is an independent audit and investigative unit headed by
an Inspector General (IG) who reports directly to the Commissioners of the FMC. To aid the
FMC in accomplishing its mission, the OIG was provided three full-time staff and a budget of
$714,000.

       The OIG is responsible for conducting audits and investigations relating to the programs
and operations of the FMC. Audits are conducted for the purpose of finding and preventing
fraud, waste and abuse, and promoting economy, efficiency and effectiveness within the agency.
OIG investigations seek out facts related to allegations of wrongdoing on the part of FMC
employees and individuals, or entities having contracts with, or obtaining benefits from, the
agency. The Inspector General Act provides that the OIG shall have access to all agency records
and may subpoena records from entities outside of the agency in connection with an audit or
investigation.

       The IG is required by law to prepare a report summarizing OIG audits and investigations
during the immediately preceding six-month period.          The report is sent to the FMC
Commissioners, the President of the Senate, the Speaker of the House and FMC’s appropriating
and authorizing committees. This dual reporting requirement facilitates and helps to ensure the
independence of the Office.


       April 1, 2011 – September 30, 2011                                         Page 2
        Inspector General’s Semiannual Report to Congress

                                 AUDITS/EVALUATIONS 

       During this semiannual period, the OIG issued a program review of the Commission’s
Ocean Transportation Intermediary bond program, and began fieldwork on the annual (i)
financial statement audit and (ii) information security evaluation. We also began planning
activities associated with our review of the Bureau of Enforcement’s (BOE) Compliance Audit
Program.

                                    Issued Audits and Reviews

Audit Report Number                                             Subject of Audit

       OR11-02                                 Review of the Federal Maritime Commission’s
                                               Office of Transportation Intermediaries,
                                               Financial Responsibility Program


             Summary of Audits and Reviews Issued During the Current Period

       In OR11-02, Review of the Federal Maritime Commission’s Office of Transportation
Intermediaries, Financial Responsibility Program, the objectives were to assess agency controls
in place to ensure that ocean transportation intermediaries (OTI) (i) obtain a bond prior to licensing,
(ii) maintain a bond while providing OTI services, and (iii) are inactivated in public databases
maintained by the FMC when bonds are terminated or cancelled. We also reviewed whether OTI
status information maintained on the Commission’s website is accurate and up to date.

       The Office of Transportation Intermediaries gets high marks for its management of the
“bond” program. Licenses are conditionally approved pending receipt of bond information. The
office sends out notices to new applicants timely alerting them to approaching deadlines for bond
submissions. We also found that termination notices are timely sent to OTIs whose bonds were
cancelled and that licensees are removed from the OTI List on the agency’s website when bonds are
revoked or terminated.

       On the other hand, we identified several discrepancies between two databases maintained on
the agency’s website: the OTI List and the Links to Tariffs databases. Both links are used by the

       April 1, 2011 – September 30, 2011                                              Page 3
        Inspector General’s Semiannual Report to Congress

public and industry to obtain important information regarding OTI license status and tariff location,
respectively. These two databases should reconcile, but they do not. Besides presenting confusing
and contradictory information to the public and industry, the users could erroneously conclude that
an Non Vessel Operating Common Carrier (NVOCC) meets all Commission regulations by
appearing on the Links to Tariffs list. Procedures to streamline removal of organizations from Links
to Tariffs should be implemented.

       The bond and tariff programs would benefit from enhanced automated processes. Currently,
the programs are administered in two different bureaus on two separate applications. The problem
cited above would be addressed if the systems were merged into a larger enterprise-wide database
system. The OIG recommended that a link be established that would rely on technology to maintain
consistency between the databases. Relying more on automation and less on manual processes should
have a material and immediate impact on database consistency without requiring new technologies to
be purchased.


                                    Planned Audits and Reviews

Audit Report Number                                           Subject of Audit

       A12-XX                                 Audit of FMC’s FY 2011 Financial Statements

       A12-XX                                 Management Letter to the FY 2011 Audited
                                              Financial Statements

       OR12-XX                                Independent Evaluation of FMC’s
                                              Implementation of the Federal Information
                                              Security Management Act for FY 2011

       OR12-XX                                Review of the Bureau of Enforcement’s
                                              Compliance Audit Program

       In A12-XX, Audit of FMC’s FY2011 Financial Statements, the audit objective is to
opine on whether the FMC’s FY 2011 financial statements follow Generally Accepted Accounting
Principles and present fairly the financial position of the agency. The OIG will also review internal
controls over financial reporting and agency compliance with laws and regulations. The statements to
be audited are the Balance Sheets as of September 30, 2011 and 2010, and the related Statements of

       April 1, 2011 – September 30, 2011                                            Page 4
          Inspector General’s Semiannual Report to Congress

Net Cost, Statements of Changes in Net Position, Statements of Budgetary Resources, Statements of
Financing and Statements of Custodial Activity. This will be the eighth consecutive year that the
FMC prepared financial statements for audit.


          The OIG will also prepare a Management Letter that presents findings arising from the
review of the statements that are not material to the financial statements in the current year, but if not
addressed, could materially affect future statements.


          In OR12-XX, Independent Evaluation of FMC’s Implementation of the Federal
Information Security Management Act (FISMA) for FY 2011, the objectives are to (1) evaluate the
agency’s information systems security program and assess compliance with FISMA and related
information security policies, procedures, standards and guidelines; (2) evaluate responses to prior
recommendations, and (3) review agency activities associated with its responsibilities under the
Privacy Act. This year the OIG will issue an independent evaluation of the agency’s information
security program and submit a report to the Office of Management and Budget in response to specific
security-related questions provided to all federal departments and agencies subject to FISMA.


          In OR12-XX, Review of the Bureau of Enforcement’s Compliance Audit Program, the
review objectives are to assess the overall effectiveness of the program. Specifically, we will
evaluate controls in place to ensure the accuracy of responses from industry on questionnaires
used by BOE in the audit process, review program performance measures and document program
accomplishments. Finally, we will assess BOE’s follow-up processes to validate corrective
action.


                              INVESTIGATIVE ACTIVITIES

          The Inspector General Act of 1978, as amended, provides that the IG may receive and
investigate complaints or information concerning possible allegations of fraud, waste and abuse
occurring within FMC programs and operations. Matters of possible wrongdoing are referred to
the OIG in the form of allegations or complaints from a variety of sources, including FMC
employees, other government agencies and the general public. During this reporting period, the
          April 1, 2011 – September 30, 2011                                             Page 5
        Inspector General’s Semiannual Report to Congress

OIG received nine complaints. We responded to four of the complaints and forwarded five
complaints to the appropriate FMC program area for disposition. The OIG opened no new
investigations and referred no matters to prosecutorial authorities during this period.


       Additionally, the OIG continues to work with the agency’s Office of General Counsel
concerning an ongoing Internet scam that attempts to defraud the public by, among other things,
using the agency’s official insignia.

                                OTHER OIG ACTIVITIES

                                        Review of Legislation

       As required by the Inspector General Act of 1978, as amended, the Office of Inspector
General routinely reviews proposed legislation and regulations. The purpose of these reviews is
to assess whether the proposed legislation or regulation (1) impacts the economy and efficiency
of FMC programs and operations, and (2) contains adequate internal controls to prevent and
detect fraud and abuse.

                 Council of Inspectors General on Integrity and Efficiency Activities

   The Council of Inspectors General on Integrity and Efficiency (CIGIE) was established by
the Inspector General Reform Act of 2008 (P.L. 110-409) as an independent entity to:

   •   address integrity, economy and effectiveness issues that transcend individual Government
       agencies; and
   •   increase the professionalism and effectiveness of personnel by developing policies,
       standards, and approaches to aid in the establishment of a well-trained and highly skilled
       workforce in the offices of the inspectors general.

       The CIGIE is comprised of all inspectors general that are Presidentially-appointed / Senate
confirmed and those that are appointed by agency heads.


       April 1, 2011 – September 30, 2011                                            Page 6
        Inspector General’s Semiannual Report to Congress

       The OIG remains active in the CIGIE operations. For example, the IG is a member of
CIGIE’s Legislation and Integrity Committees. The Legislation Committee is a centralized point-
of-contact and liaison for CIGIE to ensure regular and ongoing communication with
Congressional committees, committee staff and the Government Accountability Office regarding
issues of common interest, and provides input to, and receives feedback from, the Congress on
legislation affecting the IG community as a whole. The Integrity Committee is charged with
receiving, reviewing, and referring for investigation, where appropriate, allegations of administrative
(non-criminal) misconduct against inspectors general and designated senior staff members of the OIG.
The Committee's membership consists of the Federal Bureau of Investigation's representative to the
CIGIE, who serves as its Chairperson; the Special Counsel of the Office of Special Counsel, the
Director of the Office of Government Ethics; and four federal inspectors general.

       The Assistant Inspector General for Audits participates in Federal Audit Executive
Council (FAEC) activities. The FAEC is comprised of senior audit staff from agency OIGs that
discuss and coordinate issues affecting the Federal audit community - with special emphasis on
audit policy and operations of common interest to FAEC members. The Counsel to the Inspector
General participates in the Council of Counsels to the Inspector General (CCIG) activities. The
CCIG consists of senior counsel from agency OIGs who discuss various legal issues that affect
the OIG community.

       Also, during the reporting period, in accordance with the Inspector General Reform Act,
FMC/OIG provided legal services, on a reimbursable basis, to the Architect of the Capitol, OIG,
pursuant to a Memorandum of Understanding.

                                          Peer Review Activities

       Federal Offices of Inspector General are required by the IG Act to have a peer review
performed once every three years. These reviews are to be performed only by federal auditors.
A committee of the CIGIE schedules the review to ensure that resources are available to perform
them and that OIGs do not conduct reciprocal reviews.


       April 1, 2011 – September 30, 2011                                             Page 7
        Inspector General’s Semiannual Report to Congress

       The objectives of a peer review are to determine, for the audit function, whether an
effective quality control system has been established in the office and if policies, procedures and
applicable government auditing standards are being followed.

       The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, Public Law
111-203, requires federal offices of inspectors general to include, in their semiannual reports to
Congress, an appendix containing the results of any peer review conducted by another OIG
during the reporting period, or if no peer review was conducted within that reporting period, a
statement identifying the date of the last peer review conducted by another OIG. The last peer
review of the FMC OIG was issued on March 12, 2010, outside of this reporting period. There
are no unimplemented recommendations from this or any previous peer review.            The March
2010 peer review opinion and report are available on the OIG’s webpage at
www.fmc.gov/bureaus_offices/office_of_inspector_general.aspx.

       During this reporting period, the OIG completed a peer review of the Office of Inspector
General at the Federal Election Commission (FEC/OIG) pursuant to Government Auditing
Standards requirements. A final report was issued to the FEC/IG on May 5, 2011.

                                  Significant Management Decisions

       If the IG disagrees with any significant management decision, Section 5(a)(12) of the
Inspector General Act requires that such disagreement be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change its
response to a significant resolved audit finding must also be disclosed in the semiannual report.

       For this reporting period, there were no significant management decisions made on which
the IG disagreed, and management did not revise an earlier decision on an OIG audit
recommendation.

                                         Access to Information

       The IG is to be provided with ready access to all agency records, information or

       April 1, 2011 – September 30, 2011                                          Page 8
        Inspector General’s Semiannual Report to Congress

assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the
IG to report to the agency head, without delay, if the IG believes that access to required
information, records or assistance has been unreasonably refused, or otherwise has not been
provided. A summary of each report submitted to the agency head in compliance with Section
6(b)(2) must be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.

       During the reporting period, the OIG did not encounter any difficulties in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.

                                            Audit Resolution

       As of the end of this reporting period, all OIG audit recommendations for reports issued
in prior periods have been resolved. That is, management and the OIG have reached agreement
on what actions need to be taken. As noted below, 21 of these recommendations remain open
past one year.

                                                    Report       Open     Elapsed Months
                        Short Title               Issue Date    Rec.(s)   (as of 9/30/11)

      1    Helpdesk Satisfaction Survey             8/6/10        4              13
      2    User Fee Calculations                   5/27/10        1              16
      3    T&A – Capping Report                    5/14/10        2              16
      4    FISMA Evaluation for 2009               1/28/10        8              20
      5    Bureau Timekeeping Practices            6/30/09        1              27
      6    Agency Checkout Process                 1/12/09        1              32
      7    Privacy & Data Protection               9/22/08        1              36
      8    FISMA Evaluation for 2008               9/22/08        1              36
      9    FISMA Evaluation for 2006               10/2/06        1              59
      10   Accuracy of Enforcement Databases       3/31/06        1              66




       The agency closed eight recommendations from the prior reporting period. The oldest
recommendation (66 months) involves “Pay.gov,” a payment system available to all federal
agencies that enables agency customers to make secure electronic payments to the agency
       April 1, 2011 – September 30, 2011                                         Page 9
        Inspector General’s Semiannual Report to Congress

directly from their bank accounts or by credit/debit cards. The FMC still processes the majority
of its transactions with customers, including regulated entities, by bank check. In recent updates,
management told the OIG that it will implement Pay.gov with other information technology
modernization projects. However, in its October 27, 2011, update on open recommendations,
management informed that it has continued to work with Treasury to develop agency
applications and to choose an agency interface. Management anticipates that it will phase in
Pay.gov by March 2012.

                              Contacting the Office of Inspector General

       Employees and the public are encouraged to contact the OIG regarding any incidents of
possible waste, fraud or abuse occurring within FMC programs and operations.             The OIG
telephone number is (202) 523-5863. To report suspected wrongdoing, employees or the public
may call the OIG Hotline on (202) 523-5865. A confidential or anonymous message can be left
24 hours a day. Complaints or allegations of fraud, waste or abuse can also be emailed to
oig@fmc.gov or to https://www2.fmc.gov/oigcomplaints/ (if the complainant wishes to remain
anonymous).




       April 1, 2011 – September 30, 2011                                          Page 10
        Inspector General’s Semiannual Report to Congress

SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS 

   IG Act
  Reference                     Reporting Requirement                           Page(s)

Section 4(a)(2)           Review of legislation and regulations                    6

Section 5(a)(1)           Significant problems, abuses and deficiencies          None

Section 5(a)(3)           Prior significant recommendations on which               9
                          corrective actions have not been made

Section 5(a)(4)           Matters referred for prosecution                       None

Section 5(a)(5)           Summary of instances where information was               8
                          refused

Section 5(a)(6)           List of audit reports by subject matter                  3

Section 5(a)(7)           Summary of each particularly significant report          3

Section 5(a)(8)           Statistical tables showing number of reports and        12
                          dollar value of questioned costs


Section 5(a)(9)           Statistical tables showing number of reports and        13
                          dollar value of recommendations that funds be put
                          to better use

Section 5(a)(10)          Summary of each audit issued before this reporting     None
                          period for which no management decision was
                          made by the end of the reporting period

Section 5(a)(11)          Significant revised management decisions               None

Section 5(a)(12)          Significant management decisions with which the          8
                          inspector general disagrees




       April 1, 2011 – September 30, 2011                                      Page 11
          Inspector General’s Semiannual Report to Congress

                                               TABLE I 
   INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS 

                                                                  Dollar Value

                                                              Questioned   Unsupported
                                                     Number     Cost          Costs
A. For which no management decision has been
   made by the commencement of the reporting              0       0               0
   period

B. Which were issued during the reporting period          0       0               0

   Subtotal (A + B)                                       0       0               0

C. For which a management decision was made               0       0               0
   during the reporting period

   (i)      dollar value of disallowed costs              0       0               0

   (ii)     dollar value of costs not disallowed          0       0               0

D. For which no management decision has been              0       0               0
   made by the end of the reporting period

E. Reports for which no management decision               0       0               0
   was made within six months of issuance




          April 1, 2011 – September 30, 2011                                     Page 12
          Inspector General’s Semiannual Report to Congress

                                               TABLE II 
  INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE 


                                                              Number   Dollar Value

A. For which no management decision has been made               0           0
   by the commencement of the reporting period

B. Which were issued during the reporting period                0           0

   Subtotal (A +B)                                              0           0

C. For which a management decision was made during
   the reporting period                                         0           0

   (i)       dollar value of recommendations that were
             agreed to by management                            0           0

   (ii)      dollar value of recommendations that were          0           0
             not agreed to by management

D. For which no management decision has been made               0           0
   by the end of the reporting period

E. Reports for which no management decision was                 0           0
   made within six months of issuance




          April 1, 2011 – September 30, 2011                                 Page 13
          HOTLINE COMPLAINTS
The success of the OIG mission to prevent fraud, waste and abuse
 depends on the cooperation of FMC employees and the public.

A COMPLAINT CAN BE REPORTED BY CALLING OUR 24-HR DIRECT LINE


                            (202) 523-5865
                                E-MAIL ADDRESS:

     https://www2.fmc.gov/oigcomplaints/
         TO PLACE A COMPLAINT IN WRITING PLEASE MAIL TO:

                Federal Maritime Commission
                Office of Inspector General
                Room 1054
                800 North Capitol Street, NW
                Washington, DC 20573
                To Be Opened By the IG Only

  THE INFORMATION YOU PROVIDE IS CONFIDENTIAL AND YOU CAN BE ANONYMOUS


          HOWEVER, CALLERS ARE ENCOURAGED TO ASSIST THE INSPECTOR GENERAL BY
    SUPPLYING INFORMATION AS TO HOW THEY MAY BE CONTACTED FOR ADDITIONAL INFORMATION
